Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




  MANDATORY MANAGED CARE

Changes in Medicaid Mental Health Services




                     JUNE GIBBS BROWN
                     Inspector General

                        JANUARY 2000
                        OEI-04-97-00340
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and Human
Services programs as well as the health and welfare of beneficiaries served by them. This statutory
mission is carried out through a nationwide program of audits, investigations, inspections, sanctions, and
fraud alerts. The Inspector General informs the Secretary of program and management problems and
recommends legislative, regulatory, and operational approaches to correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that focus
on issues of concern to the Department, the Congress, and the public. The inspection reports provide
findings and recommendations on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers, Regional
Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                               HEADQUARTERS

Dwayne Grant, Lead Analyst                           Alan Levine, Program Specialist

Betty Apt                                            Barbara Tedesco

Josiah Townsel                                       Brain Ritchie

Janet Miller                                         Joan Richardson


To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports are

also available on the World Wide Web at our home page address:


                               http://www.dhhs.gov/progorg/oei
                              TABLE OF CONTENTS

                                                                                                                                     PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS

      Expanded Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Reduced Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Health Impact Not Quantified . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Savings Not Always Used to Improve Mental Health Services . . . . . . . . . . . . . . . . . . . . 16


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDICES

    A: Summary of First Year Contracts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


          B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


                     HCFA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


                     SAMHSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

                        EXECUTIVE SUMMARY

PURPOSE

         To provide an early look at the changes that mandatory managed care had on State Medicaid
         mental health services for persons with serious mental illnesses.

BACKGROUND

         States are increasingly converting their Medicaid programs from traditional fee for service 

         models to managed care models. Nearly every State has implemented, or is planning to

         implement, mandatory managed care for Medicaid beneficiaries who require mental health

         services. The increased use of this emerging form of care has generated interest within the

         Substance Abuse and Mental Health Services Administration and the Health Care Financing

         Administration, particularly care for persons with serious mental illnesses.


         We used a case study approach for reviewing mandatory mental health managed care

         programs in seven States. We integrated, compared, and summarized documentary and

         testimonial evidence obtained from State Medicaid managed care offices and mental health

         departments. We also interviewed managed care organization officials, mental health providers

         and stakeholders. We did not validate the testimonial evidence, but we believe it provides a

         first hand view of this emerging form of care by program operators and stakeholders who have

         a strong interest in program effectiveness.


FINDINGS

Services Expanded

         Managed care allowed States to offer more specialized and creative out-patient services.
         Further, States said overall use of mental health services increased. Four of 7 States
         documented increased utilization ranging from about one to 2 percent after conversion to a
         managed care system.

Costs Reduced

         States converted to managed care primarily to reduce skyrocketing mental health costs. States
         reduced cost by setting limits for mental health costs in managed care contracts. They also
         achieved program savings by shifting care from in-patient to out-patient settings.

         Stakeholders, however, expressed concern that lower average length of stays and increased
         readmission rates may indicate that persons with serious mental illnesses are being released
         from in-patient care too quickly.

Mandatory Managed Care and Mental Health Services   1                                 OEI-04-97-00340
Health Impact Not Quantified

         No State had working outcome measures in place. Beneficiary satisfaction surveys and
         grievances may inaccurately reflect the level and quality of care received.

Savings Not Always Used to Improve Mental Health Services

         Consistent with existing regulations, States returned “off the top” savings to the State’s General
         Fund. States also used savings resulting from managed care operations to expand services to
         non-Medicaid eligible persons, and to help fund managed care administration. However, four
         States did not have the appropriate Medicaid waiver to use operational savings in this manner.

RECOMMENDATIONS

         While States reported that managed care programs have expanded out-patient services, and
         reduced costs, the overall effect on the health of persons with serious mental illnesses was not
         quantified. However, resolution of several important concerns could significantly improve
         Medicaid mental health programs as more States convert to mandatory managed care.
         Accordingly, we recommend that:

          <	      HCFA work with SAMHSA to develop outcome measurement systems that can be
                  used as a condition of waiver approval.

          <	      HCFA encourage States to establish independent, third-party mental health systems for
                  conducting beneficiary satisfaction surveys.

          <	      HCFA ensure that States obtain the required 1115 waiver before using savings from
                  managed care operations to expand services to non-Medicaid populations.


AGENCY COMMENTS

Both HCFA and SAMHSA commented on our draft report.

HCFA disagreed with our draft recommendation to require States to develop outcome measures as a
condition of waiver approval. While recognizing the importance of outcome measures, HCFA said no
reliable and cost-effective outcome measurement system currently exists and that requiring States to
develop such a system would stall the waiver process. We continue to believe that without an outcome
measurement system States and HCFA have no way of determining the effectiveness of managed care
services. However, based on HCFA comments we modified our draft recommendation to encourage
HFCA and SAMHSA to work together to develop outcome measurements that can be used as a
condition of waiver approval.




Mandatory Managed Care and Mental Health Services   2                                   OEI-04-97-00340
HCFA agreed that States need to improve systems for measuring and promoting beneficiary
satisfaction, and that the neutrality of people involved in the complaint process is important. However,
they disagreed with our recommendation to require the use of such third parties in State appeal and
grievance systems. They noted that appeal and grievance systems were mandated in the Balanced
Budget Act of 1997. We recently started an evaluation of these systems; therefore, we are holding in
abeyance our draft recommendation until we complete the evaluation of State Medicaid managed care
grievance and appeal systems.

HCFA disagreed with our recommendation that States have an approved 1115 waiver before using
savings resulting from managed care operations to expand services to non-Medicaid populations.
HCFA stated that no such waivers are required since States can use their own share of savings to
provide additional services of any kind including services for non-Medicaid eligible persons. We agree
with HCFA that States are free to use “off the top” State savings to fund services for non-Medicaid
eligible persons. However, we are referring to savings within the managed care program itself, including
the Federal share of these savings. Our understanding is that use of such savings for that purpose
would require a 1115 waiver. We modified the text of our report to make this distinction clearer.

SAMHSA commented that a number of our recommendations were useful, but expressed concern
about our drawing conclusions from what they believe is a study method that is not “scientific”. We
wish to emphasize that we used a case study method for our inspection. In describing our methodology
we included a detailed explanation of the advantages and limitations of our case study approach. The
limitations which we point out are similar to those described by SAMHSA. Our goal, however, was to
take advantage of the early experience of some States to guide implementation of other States who are
using a managed care approach for mental health services. We are confident that our readers will
interpret our findings in the context of the methodology which we described. SAMHSA’s thoughtful
comments will also help our readers avoid the pitfalls of over generalization.

SAMHSA expressed concern about States offering mental health services under Medicaid managed
care that are not authorized under traditional fee for service Medicaid. It was not the purpose of this
study to determine if States were complying with Medicaid rules regarding allowable services. Rather,
we were more interested in the general trends and practices of mental health services in a managed care
environment.

Additionally, SAMHSA expressed concern that we may not have adequately included the views of
State mental health staff and stakeholders. As shown in our methodology, we considered input from
such groups as highly important. To illustrate, we interviewed at least 37 State mental health staff and
stakeholders.

We also made several technical changes suggested by SAMHSA.

The full text of HCFA and SAMHSA comments are in Appendix B.




Mandatory Managed Care and Mental Health Services   3                                 OEI-04-97-00340
                                  INTRODUCTION

PURPOSE

         To provide an early look at the changes that mandatory managed care had on State Medicaid
         mental health services for persons with serious mental illnesses.

BACKGROUND

         States are increasingly converting their Medicaid programs from traditional fee for service
         models to managed care models. As of June 1998, more than 16.5 million Medicaid
         beneficiaries were participating in some type of managed care program. This represents over
         53 percent of the Medicaid population.1

         Nearly every State has implemented, or is planning to implement, mandatory managed care for
         Medicaid beneficiaries who require mental health services. As of July 1998, 36 States have
         implemented mandatory mental health managed care programs.2 The increased use of this
         emerging form of care has generated interest within the Substance Abuse and Mental Health
         Services Administration and the Health Care Financing Administration, particularly care for
         persons with serious mental illnesses.

         Within the Department of Health and Human Services, the Substance Abuse and Mental Health
         Services Administration (SAMHSA) is responsible for improving quality and availability of
         prevention, treatment, and rehabilitation services for mental illnesses. The Health Care
         Financing Administration (HCFA) is responsible for administrating the Medicaid program
         through the various States.

Mental Illnesses

         Adults, age 18 and over, who currently or any time in the past year have had a diagnosable
         mental, behavioral, or emotional disorder that results in functional impairment which
         substantially interferes with or limits one or more major life activities is defined as seriously
         mentally ill.3 The annual prevalence of serious mental illness in the United States is estimated to
         be about 5 percent, or 10 million people.4 Some of the more commonly recognized disabling
         types of serious mental illnesses include schizophrenia, bipolar disorder, major depression,
         obsessive-compulsive disorder, and panic disorder.

         Children, up to age 18, with the same diagnosis, are classified as seriously emotionally
         disturbed. An estimated 1 in 10 children are reported to have a serious emotional disturbance
         at any given time.5 In fact, the estimated prevalence rate of serious emotional disturbances for
         children - about 9 percent - is higher than the prevalence rate of serious mental illnesses for
         adults.6

Mandatory Managed Care and Mental Health Services   4                                  OEI-04-97-00340
         In addition to the disorders that effect adults, children with a serious emotional disturbance may
         also be commonly diagnosed with attention deficit disorder, autism, pervasive development
         disorder, or Tourette's syndrome.

Managed Care

         Managed care is a broad term used to describe a variety of approaches for delivering health
         care. Managed care is characterized by an emphasis on preventive care, elimination of
         unnecessary services, negotiated price discounts, smaller co-payments and deductibles, and
         substitution of lower-cost services for higher-cost services. Historically, it has been commonly
         found in private sector health insurance programs.

         Typically, managed care involves paying a contractor a fixed, or capitated, amount per month,
         per patient to provide all agreed upon health care. The contractor, commonly referred to as the
         managed care organization, then bears a financial risk of ensuring that all medically necessary
         services are provided. To remain solvent, a managed care organization must ensure that the
         cost of services does not exceed the total capitated amount.

         Managed care is a sharp contrast to the traditional fee for service delivery system where
         providers are reimbursed for each authorized service. In a fee for service system, consumers
         have open access to services, within limits set by their insurance.

Medicaid Managed Care “Carve Outs” Preferred for Mental Health Care

         “Carve out” is a term used to describe a health care service or population that has been
         separated, or carved out, from other general health services or populations. When State
         Medicaid programs convert to managed care, they typically chose to separate, or carve-out,
         mental health delivery systems from other general health services. All States in our study used a
         full or partial carve-out arrangement to deliver mental health services to Medicaid beneficiaries.
         Theoretically, carve outs allow health plans to offer Medicaid beneficiaries access to the best
         available specialists, treatments, and technologies.

         Carve outs also reduce risk to managed care organizations by separating speciality treatments
         that typically require a high level of care and cost. Carving out high-cost services and providing
         a higher capitated rate for individuals requiring those speciality services is intended to reduce
         incentives for managed care organizations to limit services. A carve out also enhances the
         ability of Medicaid agencies to ensure that funding is used to provide speciality services
         because funds are separated from general health funding.

Mandatory Medicaid Managed Care

         Historically, State Medicaid programs could only offer managed care as an option to traditional
         fee for service. States could not mandate managed care enrollment without first obtaining a



Mandatory Managed Care and Mental Health Services   5                                   OEI-04-97-00340
         waiver from HCFA. The most common waiver requests are those permitted by Section
         1915(b) and Section 1115 of the Social Security Act.

          <	      Section 1915(b) permits waiver of the Medicaid freedom-of-choice provision. This
                  waiver allows States to mandate enrollment in managed care plans. This type of waiver
                  is used more commonly than Section 1115 waivers. Of the 36 States that have
                  implemented mandatory managed care as of July 1998, 27 have 1915(b) waivers.7

          <	      Section 1115 permits large-scale demonstration projects, waiving numerous aspects of
                  Federal Medicaid law. Those aspects include rules on eligibility, benefits, provider
                  qualifications, payment rules, and administrative requirements.

         In order for a State to receive either of these waivers, they must document that managed care
         costs will not exceed those had the program continued under its present fee for service
         reimbursement system.

         Certain provisions of the Balanced Budget Act of 1997 were intended to allow States to
         implement mandatory managed care without a waiver under certain conditions. However, the
         complexity of carving out and mandating managed care for all populations with serious mental
         illnesses still generally requires a waiver.

METHODOLOGY

State Selection

         We reviewed mental health managed care programs for seven States. They were Arizona,
         Massachusetts, North Carolina, Utah, Washington, Iowa, and Colorado. We selected all
         States (five) that had been under a mandatory managed care program for persons with serious
         mental illnesses for at least three years as of April 1997.8 We selected the remaining two
         States, Iowa and Colorado, at the request of HCFA. Although Iowa and Colorado had only
         been under managed care for about two years at the time of our inspection,9 HCFA staff said
         they were generally recognized as having innovative programs.

         The mental health managed care programs operated by the seven selected States were similar
         in many respects, but they also differed in some notable ways. For example, each State
         program, except one, included adults and children. The one exception, North Carolina,
         included only children.10

         The State programs also represented a mixture of managed care contracts. Four States
         contracted with only non-profit managed care organizations. Those managed care
         organizations were formed by existing public mental health providers. Two of the remaining
         three States contracted with for-profit managed care organizations. The final State contracted
         with a combination of non-profit and for-profit managed care organizations.


Mandatory Managed Care and Mental Health Services   6                                 OEI-04-97-00340
         Finally, the States implemented mandatory managed care programs in a variety of ways. For
         example, four States initially only implemented programs in selected counties and regional
         communities--test geographical areas. The remaining three implemented State-wide programs.

         For comparison purposes, we provided a general description of each selected State first year
         program in Appendix A.

Document Review

         At each selected State, we reviewed key Medicaid and mental health program documentation
         showing program implementation, status and operations impact on persons with serious mental
         illnesses. To illustrate, we analyzed the first year managed care contract for each selected
         State. We also analyzed request for proposals, managed care waiver requests, State progress
         reports, internal and external studies and reviews on program operations, beneficiary
         satisfaction survey results, complaint and grievance reports, in-patient care data and reports,
         mental health program costs, and records on beneficiary utilization.

         We also conducted an Internet search to identify managed care research involving persons with
         serious mental illnesses. Finally, we reviewed professional journals, studies and publications on
         State Medicaid programs and mental illnesses.

Interviews

         We interviewed 23 State Medicaid managed care department and mental health office staff in
         our survey. From those officials, we obtained an understanding of individual State implemented
         and operated Medicaid programs. Finally, we obtained the views of State Medicaid and
         mental health staff on program changes for persons with serious mental illnesses.

         Also, we interviewed 16 managed care officials, and mental health care providers, as well as
         21 mental health stakeholders to obtain their views on program operations. We were
         particularly interested in their views on the impact of converting State mental health programs
         from a fee for service system to a mandatory managed care system. We selected managed
         care organization officials, mental health providers, and stakeholders based on
         recommendations from State Medicaid staff.

Advantages and General Limitations

         We used a case study approach in analyzing the changes in services on persons with serious
         mental illnesses. The advantage of this approach was that it allowed us to gain first-hand
         experiences from State officials, managed care organization representatives, mental health
         providers, and stakeholders. Our methods have general limitations in that the States or sites
         selected may not be typical, and we did not verify the testimonial information they provided to
         us. The information is also limited, because it reflects operations that occurred over a 2 to 3-
         year time period starting with each States first year contract. We are aware that State


Mandatory Managed Care and Mental Health Services   7                                  OEI-04-97-00340
         Medicaid managed care systems have continued to evolve with each new contract and waiver
         renewal, and that the structure of our surveyed States today may be quite different from their
         initial managed care contracts.

         The differences in individual State programs, and inconsistent data reporting limited our ability
         to generalize across State programs. For example, each State Medicaid program collects and
         reports data differently. To illustrate, one State tracks psychiatric hospital readmission rates
         within 30 days of release, but another State used a 90-day criteria. However, where utilization
         data was available, it is included in our report.

         Finally, a few mental health stakeholders asked us to include in our study an analysis of several
         general mental health concerns, such as housing, formulary restrictions, and involuntary
         commitments. Such issues have existed for years under previous, traditional fee for service
         systems, and will likely exist under new managed care systems. We believe they are valid,
         important issues, but we did not include them in the scope of this study. Such issues are not the
         result of State Medicaid conversion to mandatory managed care. Further, we expect to
         continue our analysis of mental health care in the future. These and other important issues are
         likely topics for those inspections.

         Despite the general limitations of our inspection, we believe this report provides good, first-
         hand information on the changes to Medicaid mental health services resulting from mandatory
         managed care enrollment. This type of information could be useful when first implementing a
         new system of care.

Definitions

         Seriously Mentally Ill - For purposes of this report, the seriously mentally ill population refers to
         both adults and children, unless otherwise stipulated.

         Stakeholders - For the purpose of this report, stakeholders include persons with an serious
         mental illness, family members of persons with a serious mental illness, and State and national
         mental health organizations representing persons with serious mental illnesses. The
         organizations include such groups as the National Alliance for the Mentally Ill, The America
         Psychiatric Association, and The Federation of Families for Children’s Mental Health.

Companion Reports

         This report is one of three on mandatory managed care and Medicaid mental health services. It
         provides an early look at the changes that mandatory managed care had on State Medicaid
         mental health services for persons with serious mental illnesses.

         While doing this study, we observed several common program characteristics and
         implementation practices that we believe would be valuable to other State Medicaid programs
         that plan to convert to a mandatory managed care system for mental health services, or any


Mandatory Managed Care and Mental Health Services   8                                    OEI-04-97-00340
         other specialty services. We present the common characteristics and practices in a companion
         report titled Mandatory Managed Care - Early Lessons Learned by Medicaid Mental Health
         Programs (OEI-04-97-00343).

         We also observed that children often face different challenges accessing mental health care than
         do adults. The differences that can effect children are presented in a companion report titled
         Mandatory Managed Care - Children’s Access to Medicaid Mental Health Care (OEI-04-97-
         00344).
                               _____      ____     ____     _____

         We did our field work between May 1997 and July 1997. While conditions regarding mental
         health services in managed care settings may have changed since then, our report reflects
         conditions and patterns of care in the first few years of converting fee for service programs to
         managed care. Wherever possible we have updated our background information. We
         conducted the inspection in accordance with Quality Standards for Inspections issued by the
         President’s Council on Integrity and Efficiency.




Mandatory Managed Care and Mental Health Services   9                                   OEI-04-97-00340
                                           FINDINGS

Services Expanded
New Services

         All States told us that managed care allowed them to offer more specialized out-patient services
         than they could offer under their prior fee for service system. State Medicaid officials, along
         with several mental health stakeholders, described several examples of successful new services
         as a result of converting to managed care. The examples are highlighted below.

          <	      Residential Services: Services typically involve a group home concept that
                  encourages and develops independent living.

          <	      Vocational Services: Vocational services involve job training and placement. Such
                  services increase financial stability, self-esteem, and independent living. Also,
                  employment opportunities have been found to reduce hospitalization, shorten in-patient
                  lengths of stay, and reduce the need for clinical services in general.

          <	      Respite Care Services: Respite services provide temporary care for beneficiaries so
                  that primary care givers may have time away and relief from stress.

          <	      In-Home Programs: These programs assist and support beneficiaries to function
                  independently in their own home. The services are available 24 hours daily for persons
                  who agreed to the program as an alternative to in-patient care.

          <	      Club House/Day Services: This program is intended to provide a structured day for
                  beneficiaries. It is often run by beneficiaries with minimum provider oversight. The
                  program objective is to develop and encourage independent living and responsibility.

          <	      Personal Services: The objective is to assist beneficiaries with personal care and daily
                  living activities, such as shopping, cleaning, banking, and picking up prescriptions.

          <	      Evaluation and Treatment Centers: These are low-cost, in-patient care facilities that
                  are limited to less than 16 beds. Stays are typically short-term. The objective is to
                  return beneficiaries to a community setting as quickly as possible.

         State officials cited the flexibility to provide services such as those described above as one key
         advantage of managed care over their previous fee for service system. They said that such
         services generally would not have been offered by States under fee for service.




Mandatory Managed Care and Mental Health Services   10                                   OEI-04-97-00340
Innovative Interventions

         The flexibility afforded by managed care allow States to be more creative in how they strive to
         improve the mental health of Medicaid beneficiaries. To illustrate,

          <	      One State provided residential phone service for a beneficiary in an isolated, rural area.
                  The phone allowed the person to easily call managed care providers and support
                  networks. Thus, State officials told us that the phone helped prevent costly visits to the
                  hospital emergency room.

          <	      Another State built a fence around the home of a person with a serious mental illness.
                  The fence reduced paranoia episodes and allowed the person to feel more secure in his
                  home. As a result, the person was able to remain actively employed in the community
                  and out of the hospital.

         Medicaid funding for innovative interventions such as the above two examples would not have
         been possible under the previous fee for service system, according to State Medicaid officials.

Increased Use

         The seven States in our study told us that converting to managed care increased overall use of
         mental health services. Four of the seven States documented that the number of Medicaid
         beneficiaries who used mental health services increased about 1 to 2 percent after conversion.
         This increase was corroborated by States that initially converted to mandatory managed care in
         test areas (counties and regions). They said the increased use of mental health services in the
         test areas was greater than that in counties and regions that continued to use fee for service
         systems.

         Historically, Medicaid mental health fee for service systems centered around expensive in-
         patient treatment. Managed care shifted the focus towards more community-based, out-patient
         care. Community-based out-patient care is generally acknowledged by both State Medicaid
         officials and stakeholders as being less costly, and more effective than in-patient care for the
         long-term treatment of persons with serious mental illnesses. While States reported decreased
         use of in-patient care, they reported larger increases of out-patient care.

         Importantly, several States noted that the time beneficiaries had to wait to receive services was
         less under managed care than it was under their prior fee for service plan. For example, one
         State reported a 25 percent decrease in the number of beneficiaries that were required to wait
         2 weeks or more for out-patient services.




Mandatory Managed Care and Mental Health Services   11                                    OEI-04-97-00340
Costs Reduced
Contracted First Year Savings

         Medicaid officials in all seven States said their primary reason for converting to managed care
         was to reduce skyrocketing mental health costs. For example, one State reported that
         Medicaid mental health costs had increased by almost 20 percent annually over the past several
         years under fee for service. State Medicaid staff told us they could gain better control over
         Medicaid mental health costs by contracting with managed care organizations under capitated
         arrangements.

         One way that States gained control over costs was by setting the contracted capitation rate
         lower than the anticipated fee for service rate. For example, one State stipulated that contract
         bids could not exceed 95 percent of the anticipated fee for service rate. Four of the seven
         States we studied said such “off the top” savings from setting contract limits ranged from 4 to
         12 million dollars in the first year11. The remaining three States allowed contracted rates to
         match expected fee for service levels. Therefore, while not realizing a cost savings, they said
         their costs remained stable.

Reduced In-Patient Care Lowered Costs

         The seven States we studied all claimed dramatic declines of in-patient (hospitalization) costs.
         Under their previous fee for service systems, State Medicaid staff said in-patient costs typically
         represented over half of their mental health service expenditures. Most of the State Medicaid
         staff said that they cut the percentage of in-patient costs nearly in half by converting to managed
         care. For example, one State Medicaid official said that in-patient care costs were reduced
         from 51 percent of mental health costs to only 17 percent one year after conversion to managed
         care.

         The States managed care programs achieved cost reductions largely by shifting care from in-
         patient to out-patient settings. The decrease of in-patient use allowed States to completely
         close some State psychiatric hospitals and significantly reduce total available beds for mental
         health care. Medicaid staff in two States, for example, said they experienced a reduction of 40
         to 50 percent in available psychiatric hospitals beds.

         Finally, State managed care organizations achieved cost savings by reducing hospital length of
         stay. Commonly, State Medicaid staff told us the average length of stay was reduced by as
         much as 50 percent after converting to managed care. Medicaid staff in one State, for
         example, said their average length of stay dropped from about 12 days to 6 days after
         converting to managed care. Staff in another State reported a drop from about 30 days to
         under 20 days.

         Conversely, State Medicaid staff noted that the psychiatric hospital re-admission rate was
         generally higher under managed care than it was under their previous fee for service system.

Mandatory Managed Care and Mental Health Services   12                                  OEI-04-97-00340
         Increases in re-admission rates generally ranged from about 4 to 9 percent, although one State
         saw no noticeable increase.

         Stakeholders generally agreed with State Medicaid staff on the effectiveness of out-patient
         treatment. However, stakeholders in several States expressed concern that possibly too many
         hospital beds are being eliminated too quickly from the public mental health system Further,
         these stakeholders expressed concern that lower average length of stays, and increased re-
         admission rates may indicate that persons with serious mental illnesses are being released from
         in-patient care too quickly.



Health Impact Not Quantified
No Systematic Measures of Clinical Outcomes

         Is managed care improving the health of persons with serious mental illnesses? This is a very
         serious and important question for HCFA, SAMHSA, States, managed care organizations, and
         stakeholders. However, none of the States included in our study had working outcome
         measures in place before or after they converted to managed care. Even basic utilization data,
         such as lengths of hospital stays, and number of visits, was inconsistently reported by States.
         Therefore, HCFA and States have no systematic way to determine the impact of managed care
         on the health of persons with serious mental illnesses.

         However, State officials, mental health providers, and stakeholders in all States said they
         believe that overall mental health care has improved as a result of converting to mandatory
         managed care. Supporters of managed care could supply only anecdotal evidence. Likewise,
         critics of managed care presented similar anecdotal evidence for their views. Given the lack of
         supporting, compelling evidence from either supporters or critics, there is little quantifiable proof
         on whether mental health care has gotten better or worse.

         One way to determine if a patient’s health improved is to analyze the results achieved by a
         specific type of treatment or system of care. This is commonly referred to as measuring clinical
         outcomes. Clinical outcomes are critical when trying to determine if services and programs are
         effective. However, clinical outcomes are also the most difficult type to determine, particularly
         when it involves serious mental illnesses because each person’s treatment plan is unique, and it
         is often difficult to determine which intervention brought about improvement. Further, mental
         illness may be influenced by environmental factors, such as poverty, and family situations.

         Medicaid staff in all States that participated in our study said they need to develop and
         implement clinical outcome tracking systems. They also said they were in the process of
         developing and testing such systems. According to the State officials, once their systems are
         completed, they will be able to gather and study data to determine clinical outcomes for persons
         with serious mental illness.


Mandatory Managed Care and Mental Health Services   13                                   OEI-04-97-00340
         In the interim, States use various service indicators to judge the quality of managed care. For
         example, they include specific standards in their managed care organization contracts such as
         re-admissions rates, speed in which phones are answered, and the timeliness in which payments
         are made to providers. Some States also specify bonuses and penalties in their managed care
         contracts to encourage meeting the standards. State officials agree, however, that while such
         measures are important, they do not allow States to determine if people with serious mental
         illnesses are getting better faster, and staying well longer.

Beneficiary Satisfaction Measures May Be Misleading

         Where available, we compared the results of managed care organization beneficiary satisfaction
         surveys with results of similar surveys conducted by States prior to their conversion to managed
         care. Our comparisons showed no significant changes in satisfaction resulting from
         implementation of managed care. Medicaid beneficiaries seemed generally satisfied with care
         and services both before and after the States converted to managed care.

         Stakeholders, however, expressed concern about the results of managed care organization
         conducted beneficiary satisfaction surveys. Stakeholders argued that the surveys may be an
         inaccurate reflection of the experiences and opinions of managed care organization beneficiaries
         with serious mental illnesses. The stakeholders gave several examples to illustrate their
         concern.

         First, managed care organizations were generally responsible for conducting all surveys of
         persons with serious mental illnesses to determine managed care service satisfaction. The
         managed care organizations were typically required to report survey results to the States.
         Because the managed care organization that provided the services also conducts the survey,
         stakeholders said that persons with serious mental illnesses were often afraid to criticize the
         services they received. They noted that in most instances, persons with serious mental illnesses
         had no where else to go for needed services.

         Second, persons with serious mental illnesses, due to the very nature of their illness, were often
         not able to accurately comment on the level or benefits of care they received. Further, in some
         instances, they were not aware of services or treatment options available to them.

         Finally, stakeholders noted that persons with serious mental illnesses were often unable to
         complete survey instruments independently. In some such instances, they said it was common
         practice for providers to assist beneficiaries in completing surveys. Therefore, according to the
         stakeholders, it was unlikely that beneficiaries would openly criticize providers who were
         helping them complete a survey.

         Several States have tried to lessen stakeholder concern about “the fox guarding the hen house”
         by creating Ombudsman programs, and by contracting with consumer groups to conduct
         satisfaction surveys. In States where satisfaction surveys were conducted by parties other than



Mandatory Managed Care and Mental Health Services   14                                  OEI-04-97-00340
         managed care organizations, stakeholders said consumers were more comfortable voicing their
         true opinions without fear of reprisal, whether real or perceived.

         However, even in States that used third parties to conduct satisfaction surveys, stakeholders still
         questioned their impartiality when the third party relied on funding from the managed care
         organization.

Grievances May Not Be a Reliable Measure

         Grievances may not be a reliable measure of health impact for two reasons. First, States told

         us they received very few formal grievances. Therefore, they assumed that beneficiary care

         was adequate. In fact, Medicaid officials in one State said that they had never received a

         compliant about mental health care provided by a managed care organization. 


         Generally, complaints or grievances that arose were resolved at the managed care organization

         level. Typically, managed care organizations have first level responsibility for handling

         consumer and provider grievances. If managed care organizations cannot satisfactorily resolve

         a grievance, the consumer can elevate it to the State. 


         Second, stakeholders expressed an overall feeling that beneficiaries rarely used the grievance

         process. They said beneficiaries were not fully aware of their grievance rights and procedures. 

         Stakeholders complained that grievance procedures for managed care organizations were not

         always well publicized. They told us that although beneficiaries typically were given brochures

         explaining grievance procedures, they seldom read or understand the information. 

         Stakeholders also believed that beneficiaries did not file grievances because they were afraid it

         would effect the services they receive.


         In general, providers filed more complaints and grievances than did beneficiaries. Further, most

         of the complaints and grievances were filed against for-profit managed care organizations rather

         than non-profit managed care organizations. In most instances, the complaints and grievances

         involved financial issues or perceived limits on provider authority to provide service. 


         To add credibility to the grievance process, two States added a contract provision that required

         an independent Ombudsman program to assist beneficiaries who had complaints and

         grievances. This was expected to improve beneficiary support and education. However,

         stakeholders argued that if an Ombudsman program is used it should be funded directly by the

         States.


         The complaint and grievance procedures under managed care were similar to the prior fee for

         service systems. Beneficiaries brought few formal complaints or grievances to the State. They

         were resolved at the lowest possible level--usually the provider. However, there was one

         important difference, beneficiaries had an option. They could vote with their feet, and go to

         another provider. This is not always an option for beneficiaries receiving services through a

         mandatory managed care system.



Mandatory Managed Care and Mental Health Services   15                                  OEI-04-97-00340
Savings Not Always Used to Improve Mental Health Services
“Off The Top” Contract Savings Were Returned to State General Fund

         Four States achieved cost savings by setting contract limits for managed care. They returned
         these savings to the State General Fund. The State then re-directed the savings to other State
         activities.

         While Federal requirements do not limit the use of such “off-the-top” program savings for other
         purposes, the practice of using the fee for services to managed care conversion process as an
         opportunity to reduce mental health program costs was a great concern to stakeholders, such
         as State officials for the National Alliance of the Mentally Ill. The stakeholders preferred
         awarding managed care mental health contracts at 100 percent of the estimated fee for service
         level. They argued that this would allow States to expand alternative programs for persons with
         serious mental illnesses.

         However, State Medicaid officials viewed the reductions as a necessary action to roll back
         overall mental health costs that for years had skyrocketed out of control under the fee for
         service system. By effecting large cost reductions through the contracting process, States
         reduced their overall mental health costs, as well as matching Federal expenditures. Further,
         neither stakeholders nor State officials have shown a deterioration in service for people with
         serious mental illnesses after the conversion.

         Three States did award contracts at 100 percent of estimated fee for service levels. Those
         States seemed to enjoy higher support by stakeholders for their managed care conversion.

Savings Resulting From Managed Care Operations Were Used to Expand Non-
Medicaid Services

         Five of seven States reported operational savings. Operational savings result when money paid
         to a managed care organization to provide care is not spent during the course of the year. This
         residual money is considered to be savings resulting from managed care operations. States said
         that operational savings result from implementation of managed care practices such as greater
         use of out-patient care and reductions in length of hospital stays, or from less than anticipated
         utilization of services.

         According to State Medicaid staff, managed care organizations in four of the States used such
         operational savings to expand services to non-Medicaid eligible populations. The other State
         deposited its operational savings into the General Fund.

         Using such operational savings to expand services to non-Medicaid persons is permitted by
         waiver under Section 1115 of the Social Security Act. However, States are first required to
         ensure that all necessary services are provided to Medicaid beneficiaries. Of the four States in


Mandatory Managed Care and Mental Health Services   16                                 OEI-04-97-00340
         our study that reported using operational savings to expand services to non-Medicaid

         populations, only one had the required Section 1115 waiver. 


         The other three States that expanded services to non-Medicaid populations, and the one State

         that returned operational savings to the State General Fund, only had a 1915(b) waiver. 

         However, a 1915(b) waiver does not allow States to use operational savings to provide

         services for non-Medicaid populations. It only allows States to use operational savings to

         provide Medicaid beneficiaries with additional services. Using managed care operational

         savings to provide services to non-Medicaid populations or depositing such savings in the State

         General Fund are not inappropriate when the original funding included Federal dollars.


         Another issue is that States provided little oversight on how managed care organizations used

         operational savings. In addition to using such savings to expand services to non-Medicaid

         populations, some managed care organizations used operational savings for administrative

         purposes. For example, some used the savings for financial reserves, administrative salary

         increases, mortgage payments, and facility development. State request for proposals gave only

         general guidance over how savings could be used. Typically, no prior approval was required,

         and spending of operational savings was left up to the discretion of the managed care

         organization.





Mandatory Managed Care and Mental Health Services   17                                OEI-04-97-00340
                          RECOMMENDATIONS


While States reported that managed care programs have expanded out-patient services, and reduced
costs, the overall effect on health of persons with serious mental illness was not quantified. However,
resolution of several important concerns could significantly improve Medicaid mental health programs
as more States convert to mandatory managed care. Accordingly, we recommend that

         HCFA work with SAMHSA to develop outcome measurement systems that
         can be used as a condition of waiver approval. Most State contract request for
         proposals require managed care organizations to develop and implement an outcome
         measurement system. However, at the time of our study, no State could produce any
         measurement results.

         We recognize how difficult the development of outcome measures can be, particularly in the
         area of mental health where it is often difficult to determine which intervention brought about
         relief. Also, the lack of standardized data reporting and tracking systems can make determining
         successful practices difficult. However, as difficult as it is to develop working outcome
         measurements, HCFA should continue to work with SAMHSA, States, and stakeholders to
         develop and implement working outcome measurement systems.

         HCFA encourage States to establish independent, third-party mental health
         systems for conducting beneficiary satisfaction surveys. Funding should come
         from the State Medicaid program rather than directly from managed care organizations, so that
         the program can operate more independently. Such a program will improve consumer
         confidence, and promote more open, honest feedback.

         HCFA ensure that States obtain the required 1115 waiver before using
         savings resulting from managed care operations to expand services to non-
         Medicaid populations. Three States that only had a 1915(b) waiver used operational
         savings to expand services to non-Medicaid populations. Another State returned operational
         savings to its General Fund based only on a 1915(b) waiver. State General Funds can be used
         for various activities such as building roads or providing mental health services to non-Medicaid
         populations. However by statute, a 1115 waiver is needed to use savings from managed care
         operations to expand services to non-Medicaid populations.




Mandatory Managed Care and Mental Health Services   18                                OEI-04-97-00340
                           AGENCY COMMENTS

Both HCFA and SAMHSA commented on our draft report.

HCFA disagreed with our draft recommendation to require States to develop outcome measures as a
condition of waiver approval. While recognizing the importance of outcome measures, HCFA said no
reliable and cost-effective outcome measurement system currently exists and that requiring States to
develop such a system would stall the waiver process. We continue to believe, however, that without
an outcome measurement system, States and HCFA have no way of determining the effectiveness of
managed care services. However, based on HCFA comments we modified our recommendation to
encourage HFCA and SAMHSA to work together to develop outcome measurements that can be
used as a condition of waiver approval. Further, Section 438.340 of the proposed managed care
regulation for the Balanced Budget Act of 1997 requires States to develop outcome measures.

HCFA agreed that States need to improve systems for measuring and promoting beneficiary
satisfaction, and that the neutrality of people involved in the complaint process is important. However,
they disagreed with our recommendation to require the use of such third parties in State appeal and
grievance systems. They noted that appeal and grievance systems were mandated in the Balanced
Budget Act of 1997. We recently started an evaluation of these systems; therefore, we are holding in
abeyance our draft recommendation until we complete the evaluation of State Medicaid managed care
grievance and appeal systems.

HCFA disagreed with our recommendation that States have an approved 1115 waiver before using
savings resulting from managed care operations to expand services to non-Medicaid populations.
HCFA stated that no such waivers are required since States can use their own share of savings to
provide additional services of any kind including services for non-Medicaid eligible persons. We agree
with HCFA that States are free to use “off the top” State savings to fund services for non-Medicaid
eligible persons. However, we are referring to savings within the managed care program itself, including
the Federal share of these savings. Our understanding is that use of such savings for that purpose
would require a 1115 waiver. We modified the text of our report to make this distinction clearer.

SAMHSA commented that a number of our recommendations were useful, but expressed concern
about our drawing conclusions from what they believe is a study method that is not “scientific.” We
wish to emphasize that we used a case study method for our inspection. In describing our methodology
we included a detailed explanation of the advantages and limitations of our case study approach. The
limitations which we point out are similar to those described by SAMHSA. Our goal, however, was to
take advantage of the early experience of some States to guide implementation of other States who are
using a managed care approach for mental health services. We are confident that our readers will
interpret our findings in the context of the methodology which we described. SAMHSA’s thoughtful
comments will also help our readers avoid the pitfalls of over generalization.




Mandatory Managed Care and Mental Health Services   19                               OEI-04-97-00340
SAMHSA expressed concern about States offering mental health services under Medicaid managed
care that are not authorized under traditional fee for service Medicaid. It was not the purpose of this
study to determine if States were complying with Medicaid rules regarding allowable services. Rather,
we were more interested in the general trends and practices of mental health services in a managed care
environment.

Additionally, SAMHSA expressed concern that we may not have adequately included the views of
State mental health staff and stakeholders. As shown in our methodology, we considered input from
such groups as highly important. To illustrate, we interviewed at least 37 State mental health staff and
stakeholders.

We also made several technical changes suggested by SAMHSA. For example, we clarified the
increase of both out-patient, and overall service utilization under managed care. We also clarified
Appendix A to show services that were excluded from risk by managed care organizations during their
first year contracts.

We present the full text of HCFA and SAMHSA comments in Appendix B.




Mandatory Managed Care and Mental Health Services   20                                OEI-04-97-00340
                                                                                        APPENDIX A



Summary: First Year Medicaid Managed Care Mental Health Contracts


          Start     Waiver                                                   Initial         Services
 State    Date      Type                 Type of                Coverage      Area          Excluded
                                 Managed Care Organization                  Covered        from MCO
                                                                                              Risk
 AZ       Jan      1115         Non-profit, public sector,      Adults     Statewide
          1992                  CMHCs*                          and
                                                                Children
 CO       Aug      1915(b)      Most areas non-profit, public   Adults     6 test         State
          1995                  sector CMHCs.                   and        areas.         hospital &
                                Two rural areas - partnership   Children   Excluded       drugs
                                between public sector                      largest
                                CMHCs and private, for-                    metro area
                                profit companies
 IA       Mar      1915(b)      one private for-profit          Adults     Statewide      State
          1995                  company for whole State         and                       hospital &
                                                                Children                  drugs
 MA       Jan      1915(b)      one private for-profit          Adults     Statewide      State
          1992                  company for whole State         and                       hospital &
                                                                Children                  drugs
 NC       Jan      1915(b)      Non-profit, public sector       Children   11             Outpatient
          1994                  CMHCs                           Only       counties,      care
                                                                           approx
                                                                           25% of
                                                                           state
 UT       Jul      1915(b)      non-profit, public sector       Adults     8 of 11        State
          1991                  CMHCs                           and        areas.         Hospitals
                                                                Children   80% of
                                                                           Medicaid
                                                                           population
 WA       Jul      1915(b)      Non-profit public sector        Adults     6 of 14        In-patient
          1993                  system                          and        areas.         care
                                                                Children   66% of
                                                                           Medicaid
                                                                           population
* Community Mental Health Centers



  Mandatory Managed Care and Mental Health Services   21                                 OEI-04-97-00340
                                                                      APPENDIX B


                                          Agency Comments

Health Care Financing Administration (HCFA)

Substance Abuse and Mental Health Services Administration (SAMHSA)





Mandatory Managed Care and Mental Health Services   22                   OEI-04-97-00340
                                                                                ENDNOTES


1. National Summary of Medicaid Managed Care Programs and Enrollment, Medicaid Managed Care
Enrollment Report, The Health Care Financing Administration, June 30, 1998

2. State Profiles on Public Sector Managed Behavioral Health Care and Other Reforms. Managed
Care Tracking System, Substance Abuse and Mental Health Services Administration, July 31, 1998

3. Federal Register, Volume 58, Number 96, May 20, 1993 page 29425

4. The 12-Month Prevalence and Correlates of Serious Mental Illness (SMI). Mental Health, United
States, 1996. Center for Mental Health Services, Substance Abuse and Mental Health Services
Administration, 1996

5. Prevalence of Serious Emotional Disturbance in Children and Adolescents. Mental Health, United
States, 1996. Center for Mental Health Services, Substance Abuse and Mental Health Services
Administration, 1996

6. ibid

7. State Profiles on Public Sector Managed Behavioral Health Care and Other Reforms. Managed
Care Tracking System, Substance Abuse and Mental Health Services Administration, July 31, 1998

8. Oregon and Tennessee have been under managed care for a minimum of 3 years, but did not phase
in their seriously mentally ill populations until January 1995 and July 1996 respectively.

9. Iowa implemented March 1995. Colorado implemented July 1995.

10. In February 1999, North Carolina requested to withdraw its 1915(b) waiver extension of the
Carolina Alternatives Program. The State proposes to move all recipients back to a fee for service
system on or before June 30, 1999.

11. One State reported first year cost savings of about $47 million. However, this included both
mental health and substance abuse managed care savings. The State was unable to report mental health
cost savings only.




Mandatory Managed Care and Mental Health Services   30                              OEI-04-97-00340
